No. 20-6049

IN THE

SUPREME COURT OF THE UNITED STATES

ISIDORO GONZALEZ-FERRETIZ,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I, Joseph S. Camden, do swear or declare that on this 25th day of May, 2021, as
required by Supreme Court Rule 29, I have served the enclosed SUPPLEMENTAL
BRIEF OF PETITIONER on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by delivering to Federal Express, for
second-day delivery, a package properly addressed to each of them and containing the
above documents.

The names and addresses of those served are as follows:
Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217

IU declare under penalty of perjury that the foregoing is true and correct.

am,

ph S. Camden

Executed on May 25, 2021
